      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201



November 12, 2009

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at the City of Detroit, Department of Human
               Services, for the Period November 1, 2006, Through August 31, 2009
               (A-05-09-00090)


The attached final report provides the results of our limited scope review of the City of Detroit
(City), for the period November 1, 2006, through August 31, 2009. This review was requested
by the U.S. Department of Health and Human Services, Administration for Children and
Families (ACF), Office of Head Start.

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and bolster training
and technical assistance activities.

The objective of our limited scope review was to assess whether the City has the capability to
manage and account for Federal funds in accordance with Federal regulations.

Generally, the City has the capability to manage and account for Federal funds in accordance
with Federal regulations. However, employees working on multiple activities, including the
Head Start program, completed personnel activity reports on an annual basis. As a result, the
City did not comply with Federal requirements that personnel activity reports be prepared at least
monthly.
Page 2 – Yvette Sanchez Fuentes


In written comments on our draft report, the City stated that it agreed with our finding and
implemented a policy, effective August 1, 2009, requiring all staff to complete personal activity
reports bi-weekly to coincide with each pay period.

In determining whether the City should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the City’s financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that Office of Inspector General
(OIG) post its publicly available reports on the OIG Web site. Accordingly, this report will be
posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-05-09-00090 in all correspondence.


Attachment
 Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
    AT THE CITY OF DETROIT,
DEPARTMENT OF HUMAN SERVICES,
        FOR THE PERIOD
  NOVEMBER 1, 2006, THROUGH
        AUGUST 31, 2009



                       Daniel R. Levinson
                        Inspector General

                         November 2009
                         A-05-09-00090
                       Office of Inspector General
                                         http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits
with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations.
These assessments help reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.
Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud
and misconduct related to HHS programs, operations, and beneficiaries. With investigators working in
all 50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The
investigative efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil
monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support for
OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and abuse cases
involving HHS programs, including False Claims Act, program exclusion, and civil monetary penalty
cases. In connection with these cases, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
alerts, and provides other guidance to the health care industry concerning the anti-kickback statute and
other OIG enforcement authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program. The Head Start program provides grants to local public and private non-profit and for-
profit agencies to provide comprehensive child development services to economically
disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and bolster training
and technical assistance activities.

The City of Detroit (City) administers the Head Start program through the Detroit Department of
Human Services. The City oversees Head Start operations by utilizing delegate agencies that are
contracted to provide services to over 135 Head Start sites throughout Detroit, Michigan. For
fiscal year (FY) 2009 (November 1, 2008, through October 31, 2009), the City reported 6,592
children enrolled in the Head Start program.

The City Head Start program is funded primarily through the Federal grant. The program does
not receive direct cash assistance from either the City or the State of Michigan. During FY 2009,
ACF awarded grant funds to the City totaling $47,776,351 for the Head Start and Early Head
Start programs. The City requested Recovery Act grant funding for FYs 2009 and 2010 totaling
$4,824,360 for Head Start and Early Head Start cost-of-living increases and quality
improvement.

OBJECTIVE

The objective of our limited scope review was to assess whether the City has the capability to
manage and account for Federal funds in accordance with Federal regulations.

SUMMARY OF FINDING

Generally, the City has the capability to manage and account for Federal funds in accordance
with Federal regulations. However, employees working on multiple activities, including the
Head Start program, completed personnel activity reports on an annual basis. As a result, the
City did not comply with Federal requirements that personnel activity reports be prepared at least
monthly.



                                                 i
RECOMMENDATION

In determining whether the City should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the City’s financial condition.

CITY OF DETROIT COMMENTS

In written comments on our draft report, the City stated that it agreed with our finding and
implemented a policy, effective August 1, 2009, requiring all staff to complete personal activity
reports bi-weekly to coincide with each pay period. The City’s comments are included as the
Appendix.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                             Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Head Start Program........................................................................................1
              The City of Detroit.........................................................................................1
              Requirements for Federal Grantees ………………………………………...1

          OBJECTIVE, SCOPE AND METHODOLOGY ......................................................2
               Objective ........................................................................................................2
               Scope..............................................................................................................2
               Methodology ..................................................................................................2

FINDING AND RECOMMENDATION...........................................................................3

          FEDERAL REQUIREMENT....................................................................................3

          PERSONNEL ACTIVITY REPORTS ......................................................................3

          RECOMMENDATION .............................................................................................3

          CITY OF DETROIT COMMENTS……….………………………………………..4


APPENDIX

          CITY OF DETROIT COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and bolster training
and technical assistance activities.

The City of Detroit

The City of Detroit (City) administers the Head Start program through the Detroit Department of
Human Services. The City oversees Head Start operations by utilizing delegate agencies that are
contracted to provide services to over 135 Head Start sites throughout Detroit, Michigan. For
fiscal year (FY) 2009 (November 1, 2008, through October 31, 2009), the City reported 6,592
children enrolled in the Head Start program.

The City Head Start program is funded primarily through the Federal grant. The program does
not receive direct cash assistance from either the City or the State of Michigan. During FY 2009,
ACF awarded grant funds to the City totaling $47,776,351 for the Head Start and Early Head
Start programs. The City requested Recovery Act grant funding for FYs 2009 and 2010 totaling
$4,824,360 for Head Start and Early Head Start cost-of-living increases and quality
improvement.

Requirements for Federal Grantees

Pursuant to 45 CFR § 92.20, governmental grantees are required to maintain financial
management systems that follow applicable Office of Management and Budget (OMB) cost


                                                1
principles, agency program regulations, and the terms of grant and agreements in determining the
reasonableness, allowability, and allocability of costs. Grantees must maintain records which
adequately identify the source and application of funds provided for financially-assisted
activities. Grantees are also required to compare actual expenditures or outlays with budgeted
amounts for each grant. Effective control and accountability must be maintained for all grant
cash, real and personal property, and other assets. Grantees must adequately safeguard all such
property and must assure that it is used solely for authorized purposes. In addition, pursuant to
45 CFR § 92.22, allowability of costs incurred by local governments is determined in accordance
with the provisions of Office of Management and Budget (OMB) Circular A-87, “Cost Principles
for State, Local, and Indian Tribal Governments” (2 CFR part 225).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to assess whether the City has the capability to
manage and account for Federal funds in accordance with Federal regulations.

Scope

This review was performed based upon a limited scope request from ACF, dated June 19, 2009.
Therefore, we did not perform an overall assessment of the City’s internal control structure.
Rather, we reviewed only the internal controls that pertained directly to our objective. Our
review period was November 1, 2006, through August 31, 2009.

We performed our field work at the City Department of Human Services office in Detroit,
Michigan, during July 2009.

Methodology

To accomplish our audit objective, we:

       consulted with Federal sources to confirm that the City is not excluded from receiving
        Federal funds;

       reviewed the Head Start grant findings identified in the City’s 2004, 2005, and 2006
        OMB Circular A-133 audits and the 2005, 2006, and 2007 Head Start grant award audits;

       reviewed the City’s quarterly Fiscal Monitoring Evaluation Reports for 2006, 2007, 2008
        for two delegate agencies;

       reviewed the findings related to the October 31, 2007 ACF Triennial review of the Head
        Start program;

       reviewed the City’s policies and procedures related to the Head Start program;


                                                2
      reviewed the City’s organizational chart;

      reviewed applicable Federal laws and regulations pertaining to Federal grant awards and
       the Federal Head Start program; and

      performed additional audit steps to determine that the City had corrected prior audit
       findings identified by the A-133 audits, Head Start grant award audits, and the ACF
       Triennial review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Generally, the City has the capability to manage and account for Federal funds in accordance
with Federal regulations. However, employees working on multiple activities, including the
Head Start program, completed personnel activity reports on an annual basis. As a result, the
City did not comply with Federal requirements that personnel activity reports be prepared at least
monthly.

FEDERAL REQUIREMENT

Regulations (2 CFR part 225, Appendix B, section 8.h.(4) and (5)) state that when employees
work on multiple activities or cost objectives, a distribution of their wages will be supported by
personnel activity reports which must be prepared at least monthly and must coincide with one or
more pay periods.

PERSONNEL ACTIVITY REPORTS

To determine whether the City had sufficient support for salaries and wages charged to the grant,
we reviewed the personnel activity reports for 19 Head Start employees working on multiple
activities. The 19 employees, on average, earned more than $50,000 annually and charged 27
percent of their time to the Head Start program in FY 2009. We found that 19 Head Start
employees working on multiple activities completed personnel activity reports annually at the
end of the grant year. Therefore, the City did not comply with Federal requirements that
personnel activity reports be prepared at least monthly.

RECOMMENDATION

In determining whether the City should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the City’s financial condition.



                                                3
CITY OF DETROIT COMMENTS

In written comments on our draft report, the City stated that it agreed with our finding and
implemented a policy, effective August 1, 2009, requiring all staff to complete personal activity
reports bi-weekly to coincide with each pay period. The City’s comments are included as the
Appendix.




                                                4
APPENDIX
                          APPENDIX: AUDITEE COMMENTS                       Page 1 of 2


                                                                   5031 GRANDY STREET
                                                                   DETROIT, MICHIGAN 48211
 CITY OF DETROIT                                                   PHONE 313-852-5609
 DEPARTMENT OF HUMAN SERVICES                                      FAX 313-852-4837




September 23, 2009




Mr. Marc Gustafson, Regional Inspector General
Department of Health and Human Services
Office of Audit Services
233 North Michigan Avenue
Chicago, IL 60601

Re:    Report Number: A-05-09-00090
       Limited Scope Review of the City of Detroit, Department of Human Services
       For the Period November 1, 2006, Through August 31, 2009

Dear Mr. Gustafson:

Below please find the management response of the City of Detroit, Department of Human
Services to the finding included in your draft report dated September 11, 2009.

FINDING:
We found that 19 Head Start employees working on multiple activities completed
personnel activity reports annually at the end of the grant year. Therefore, the City did
not comply with Federal requirements that personnel activity reports be prepared at least
monthly.

RECOMMENDATON:
In determining whether the City should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this
report in assessing the City's financial condition.

MANAGEMENT RESPONSE:
The City of Detroit, Department of Human Services’ management is in agreement with
the finding noted above. Although the department has consistently captured time
allocation of staff by program activity, as of August 1, 2009 the Department has
implemented a policy requiring all staff to complete personal activity reports bi-weekly:
which coincides with each pay period. This policy implementation will place the City of
Detroit, Department of Human Services in compliance with the Federal requirement of
                                                                          Page 2 of 2



 Marc Gustafson, OIG HHS / September 23, 2009                             Page 2
________________________________________________________________________________

OMB Circular A-87, Attachment B, section 8.h.(4) and (5); which states that “when
employees work on multiple activities or cost objectives, a distribution of their wages
will be supported by personnel activity reports which must be prepared at least monthly
and must coincide with one or more pay periods.”

If you have any questions, please contact Rose Holt, Manager of Accounting at (313)
887- 1034 or Coraleen Rawls, General Manager at (313) 887-1023.

Sincerely,


Shenetta L. Coleman
Executive Director

Cc:    Coraleen J. Rawls, City of Detroit DHS General Manager
       Rose Holt, Manager II, City of Detroit DHS Accounting
       Virginia Burns-Saleem, Manager II, City of Detroit DHS Head Start
       Sheila Washington-Bond, City of Detroit DHS Planning
       Mike Barton, OIG-USHHS Audit Manager
